No. __________
IN THE SUPREME COURT OF THE UNITED STATES
JUAN ANIBAL PATRONE, Petitioner,
v.
UNITED STATES OF AMERICA, Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals for the First Circuit
PROOF OF SERVICE
Pursuant to Supreme Court Rule 29, I hereby certify that on the below listed date the
enclosed Motion for Leave to Proceed in Forma Pauperis and Petition for a Writ of
Certiorari were served on each party to the above proceeding, or that party’s counsel,
and on every other person required to be served, at the following addresses through the
U.S. Postal Service by first-class mail, postage prepaid:
For the United States:
Solicitor General of the United States
Room 5616
Department of Justice
950 Pennsylvania Ave., N.W.
Washington, DC 20530-0001

Theodore Babcock Heinrich
US Attorney's Office
1 Courthouse Way, Ste 9200
Boston, MA 02210
617-748-3245

The foregoing documents were also filed within the permitted time by sending them
to the Clerk of the U.S. Supreme Court on the below listed date through the U.S. Postal
Service by first-class mail, postage prepaid, at the following address:
Scott S. Harris, Clerk
Supreme Court of the United States
1 First Street NE
Washington, DC 20543
In addition, the within documents have been submitted electronically through the
Court’s electronic filing system.
I declare under penalty of perjury that the foregoing is true and correct.
Date: June 8, 2021

/s/Leonard E. Milligan III
__________________________
Leonard E. Milligan III
Counsel of Record

